United States Court of Appeals
for the Ninth Circuit
FILED SEP 10 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF-APPELLEE,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, INDIVIDUALLY
AND ALLEGEDLY DOING BUSINESS AS HOTZE
VITAMINS; ET AL.,
DEFENDANTS-APPELLANTS.
ORDER
Before: SILVERMAN, TALLMAN, and MURGUIA,
Circuit Judges.
Appellants have filed a combined motion for
reconsideration and motion for reconsideration en
banc and a related notice of supplemental authority
(Docket Entry Nos. 11, 12).
The motion for reconsideration is denied
(Docket Entry No. 11) and the motion for
reconsideration en banc (Docket Entry Nos. 11, 12) is
denied on behalf of the court. See 9th Cir. R. 27-10;
9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this
closed case.
1a

United States Court of Appeals for the
Ninth Circuit
FILED MAR 21 2019
MOLLY C. DWYER,
CLERK U.S. COURT OF APPEALS
No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF-APPELLEE,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, INDIVIDUALLY
AND ALLEGEDLY DOING BUSINESS AS HOTZE
VITAMINS; ET AL.,
DEFENDANTS-APPELLANTS.
Submitted: June 14, 2018, Decided: June 18, 2018
ORDER
Before: SILVERMAN, TALLMAN, and MURGUIA,
Circuit Judges.
Appellee’s motion to dismiss this appeal for
lack of jurisdiction (Docket Entry No. 4) is granted.
See 28 U.S.C. § 1447(d); Things Remembered, Inc. v.
Petrarca, 516 U.S. 124, 127 (1995); Kunzi v. Pan Am.
World Airways, Inc., 833 F.2d 1291, 1293 (9th Cir.
1987).
Appellants’ motion to order the district court
to recall the case and stay proceedings pending
appeal (Docket Entry No. 6) is denied as moot.
DISMISSED.
2a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, L.L.C., ET AL.,
DEFENDANTS.
Case No. 18-cv-05538-VC
ORDER GRANTING MOTION TO REMAND
Re: Dkt. Nos. 19, 21.
The Environmental Research Center’s motion
to remand the case to Alameda County Superior
Court is granted. The defendants have not shown
that Environmental Research Center would have
Article III standing to pursue their Proposition 65
action in federal court. Cf. Environmental Research
Ctr. v. Heartland Prods., 29 F. Supp. 3d 1281, 1282
(C.D. Cal. 2014). The defendants argue that
Environmental Research Center has standing as a
qui tam assignee of the State of California’s claims
under Vermont Agency of Nat. Res. v. U.S. ex. rel.
Stevens, 529 U.S. 765, 773 (2000). Even assuming
that Stevens applies, that theory raises significant
concerns that California is the real party in interest
to this case, such that there is no diversity
jurisdiction. See Moor v. Alameda Cty., 411 U.S. 693,
717 (1973); New Mexico ex rel. Nat’l Educ. Ass’n of
New Mexico, Inc. v. Austin Cap. Management Ltd.,
671 F. Supp. 2d 1248, 1251 (D.N.M. 2009). Because
the removal statute is strictly construed against
jurisdiction and any doubt as to the right of removal
3a

is resolved in favor of remand, the motion to remand
is granted. Gaus v. Miles, Inc., 980 F.2d 564, 566 (9th
Cir. 1992).
Environmental Research Center’s request for
attorney’s fees and the defendants’ request for 28
U.S.C. § 1292(b) certification are denied. The
defendants’ motion to transfer is denied as moot.
IT IS SO ORDERED.
Dated: December 21, 2018
VINCE CHHABRIA
United States District Judge

4a

United States Court of Appeals
for the Ninth Circuit
FILED SEP 18 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
No. 18-17463
D.C. No. 3:18-cv-05538-VC
Northern District of California, San Francisco
ENVIRONMENTAL RESEARCH CENTER, INC.,
PLAINTIFF-APPELLEE,
v.
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, INDIVIDUALLY
AND ALLEGEDLY DOING BUSINESS AS HOTZE
VITAMINS; ET AL.,
DEFENDANTS-APPELLANTS.
MANDATE
The judgment of this Court, entered March 21,
2019, takes effect this date.
This constitutes the formal mandate of this
Court issued pursuant to Rule 41(a) of the Federal
Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
Ninth Circuit Rule 27-7
5a

FED. R. APP. P. 35(a)(1)
Rule 35. En Banc Determination
(a) WHEN HEARING OR REHEARING EN BANC MAY
BE ORDERED. A majority of the circuit judges who are
in regular active service and who are not disqualified
may order that an appeal or other proceeding be heard
or reheard by the court of appeals en banc. An en banc
hearing or rehearing is not favored and ordinarily will
not be ordered unless:
(1) en banc consideration is necessary to secure or
maintain uniformity of the court's decisions; or
(2) the proceeding involves a question of
exceptional importance.
FED. R. APP. P. 47(a)
Rule 47. Local Rules by Courts of Appeals
(a) LOCAL RULES.
(1) Each court of appeals acting by a majority of
its judges in regular active service may, after giving
appropriate public notice and opportunity for
comment, make and amend rules governing its
practice. A generally applicable direction to parties or
lawyers regarding practice before a court must be in a
local rule rather than an internal operating procedure
or standing order. A local rule must be consistent
with—but not duplicative of—Acts of Congress and
rules adopted under 28 U.S.C. §2072 and must
conform to any uniform numbering system prescribed
by the Judicial Conference of the United States. Each
circuit clerk must send the Administrative Office of
the United States Courts a copy of each local rule and
internal operating procedure when it is promulgated
or amended.
6a

NINTH CIR. RULE 27-10
MOTIONS FOR RECONSIDERATION
(a) Filing for Reconsideration
(1) Time limit for orders that terminate the case
A party seeking further consideration of an order
that disposes of the entire case on the merits,
terminates a case, or otherwise concludes the
proceedings in this Court must comply with the time
limits of FRAP 40(a)(1). (Rev. 7/1/16)
(2) Time limit for all other orders
Unless the time is shortened or expanded by order
of this Court, a motion for clarification, modification
or reconsideration of a court order that does not
dispose of the entire case on the merits, terminate a
case or otherwise conclude proceedings in this Court
must be filed within 14 days after entry of the order.
(Rev. 12/1/09; Rev. 7/1/16)
(3) Required showing
A party seeking relief under this rule shall state
with particularity the points of law or fact which, in
the opinion of the movant, the Court has overlooked
or misunderstood. Changes in legal or factual
circumstances which may entitle the movant to relief
also shall be stated with particularity.
(b) Court Processing
Motions Panel Orders: A timely motion for
clarification, modification, or reconsideration of an
order issued by a motions panel shall be decided by
that panel. If the case subsequently has been assigned
to a merits panel, the motions panel shall contact the
merits panel before disposing of the motion. A party
may file only one motion for clarification,
modification, or reconsideration of a motions panel
7a

order. No answer to a motion for clarification,
modification, or reconsideration of a motions panel’s
order is permitted unless requested by the Court, but
ordinarily the Court will not grant such a motion
without requesting an answer and, if warranted, a
reply. The rule applies to any motion seeking
clarification, modification, or reconsideration of a
motions panel order, either by the motions panel or by
the Court sitting en banc. (New 1/1/04; Rev. 12/1/09;
Rev. 7/1/16)
Orders Issued Under Circuit Rule 27-7: A
motion to reconsider, clarify, or modify an order issued
pursuant to Circuit Rule 27-7 by a deputy clerk, staff
attorney, circuit mediator, or the appellate
commissioner is initially directed to the individual
who issued the order or, if appropriate, to his/her
successor. The time to respond to such a motion is
governed by FRAP 27(a)(3)(A). If that individual is
disinclined to grant the requested relief, the motion
for reconsideration, clarification, or modification shall
be processed as follows: (New 1/1/04; Rev. 7/1/16)
(1) if the order was issued by a deputy clerk or staff
attorney, the motion is referred to an appellate
commissioner;
(2) if the order was issued by a circuit mediator,
the motion is referred to the chief circuit
mediator;
(3) if the order was issued by the appellate
commissioner or the chief circuit mediator, the
motion is referred to a motions panel.
Ninth Circuit General Order ¶6.11
6.11. Motions for Reconsideration En Banc
Any motion or petition seeking en banc review of
an order issued by a motions or oral screening panel
8a

shall be processed as a motion for reconsideration en
banc. The Clerk shall forward a motion for
reconsideration en banc of a motion previously
considered by a motions or oral screening panel to the
appropriate staff attorney for processing. If the
motion was decided by published order or opinion, the
motion will be circulated to all active judges. In cases
involving judgments of death, the Clerk shall forward
all motions for reconsideration en banc to Associates.
The motion shall be referred by the staff attorney
to the panel which entered the order in issue. The
panel may follow the relevant procedures set forth in
Chapter 5 in considering the motion for rehearing en
banc, or may reject the suggestion on behalf of the
Court. (Rev. 3/24/04; 12/13/10; 9/17/14)

9a

